/■

I

Supreme Court. U.S.
FILED

IN THE

JAN 0 > 2021

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE Cl f-EK

APRIL TERM, 2021

STEVEN LYNN OPPEL-PETITIONER (PRO-SE)
VS.
STATE OF MINNESOTA-RESPONDENT (S)

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES SUPREME COURT

IN CARE OF
STEVEN LYNN OPPEL (PRO-SE)
4981 HWY 33 NORTH
SAGINAW,MN 55779

I

QUESTIONS PRESENTED

I.

Are Minnesota courts more interested in protecting a judge's reputation then the
constitutional rights of the people?

II.

Did the trial judge have the right to deny a defendant's right to request counsel?

III.

Are Minnesotan's constitutional rights in jeopardy in order to secure wrongful
convictions and keeping them through denials rather than relief?

IV.

Are Minnesotan's entitled to an evidentiary hearing when there are witnesses and
undisputed recorded evidence that clearly proves that the defendant was
unconstitutionally convicted and was unjustly denied relief by Minnesota courts in
order to protect one of their own judge's reputation blindsiding true justice in order
to keep that wrongful, unlawful and unconstitutional conviction from being
overturned?

V.

Will this honorable court allow Minnesota courts to sustain unconstitutional convictions?

a

TABLE OF CONTENTS
QUESTIONS PRESENTED

2

INDEX TO APPENDICES

3

TABLE OF AUTHORITIES
STATEMENT OF THE CASE

5

REASONS TO GRANT PETITION

€

CONCLUSION

7
REASON TO GRANT PETITION

The VERDICT WAS UNCONSTITUTIONAL AND WAS THE RESULT OF
PASSIONS AND PREJUDICE.
INDEX TO APPENDIX
On 8/11 2020 The Minnesota Supreme Court's order denying petition for review of the
Minnesota court of Appeals decision appears at Appendix A. to this petition.
On 3/24/2020 The Minnesota Court of Appeals decision affirming the district court
convictionof petitioner appears at Appendix B. to this petition.
JURISDICTIONS
The judgement of the court of appeals petition Appendix B. was entered 3/24 2020. The
jurisdiction of the court is invoked under 28 U.S.C.§1257 (a). This petition is timely filed
pursuant to 28 28 U.S.C.§2101 (c).

3

TABLE OF AUTHORITIES
United States Constitution 4th, 5th, and 14th amendments.

IN THE SUPREME COURT OF THE UNITED STATES
APRIL TERM, 2021

STEVEN LYNN OPPEL (pro-se)- PETITIONER
VS.
THE STATE OF MINNESOTA- RESPONDANT

Petition of Writ of Certiorari to the
Minnesota Court of appeals
For the State of Minnesota

Petitioner respectfully prays that a writ of certiorari issues to the review the judgments
below, rendered in direct appeal of the trial courts verdict, which judgment affirmed the
district courts conviction, and where the clear weight of the evidence was excessive, was a
result of passions and prejudices, grounds for reversal of the lower court's conviction and a
new trial in the instant case.

STATEMENT OF THE CASE

In the case at hand, when the Judge removed my constitutional right to a public
defender then also removed my right to even apply when he clearly knew I was not of
legal mind. This unconstitutional decision unfairly helped the prosecution and
guaranteed there was no way possible I could receive a fair trial, being forced to
represent my self not knowing what I was doing not to mention the stress this was
causing. Not even being tested to see if I was even capable which I absolutely wasn't
legally competent to represent myself, which lead to my wrongful conviction. And then
to keep this injustice from ever getting overturned, critical parts were unlawfully
removed from the transcripts to coverup this unconstitutional act. Feeling confident
that the undisputible recordings that proved this injustice would never see the light of
day. This whole case was a nightmare from the get go and I don't want to go on and on
about all the injustices that this lead to, by simply denying me my constitutional rights
to a fair trial.

5

REASONS TO GRANT PETITION

I.

To protect Minnesotans from being forced into self-representation in order to get
convictions in violation of their constitutional rights.

II.

When you have Minnesota judges policing other judges’ unconstitutional decisions, justice
suffers, this honorable court MUST grant this petition to remind Minnesota judges that
Minnesotans have constitutional rights.

6

CONCLUSION

Wherefore, the premise considered, petitioner respectfully contends that the decision of
the courts below were in error and that this honorable court, MUST grant review of the
case and should issue the writ prepared and prayed for.

It is respectfully submitted,

STATE OF MINNESOTA}
}SS.
COUNTY OF ST LOUIS
Petitioner personal appears and swears under 28 U.S.C. § 1746, penalty of perjury, being
duly sworn by his own hand and signature, that the foregoing petition and facts set forth
in this petition are true and correct to the best of his ability.

Date:
Petitioner Pro Se

7

APPENDIX A

